No. 20-1035

In tfje S>upveme €ourt of tfje fflntteb £>tate&

IN RE JODY D KIMBRELL, Petitioner ^
\ .

PETITION FOR REHEARING
EN BANC
On Petition for ,a Writ of Mandamus to;
The Illinois Supreme Court

ILLINOIS STATE BOARD OF ELECTIONS
CHICAGO; JAY ROBERT "JB" PRITZKER,
GOVERNOR ILLINOIS and Member of the
Illinois Bar/ Chicago Bar; •
KAREN A. YARBROUGH, COOK COUNTY C.LERK
• Respondents

Jody D Kimbrell
6608 N University St
Peoria, IL 61614
309 678-3957
jody513@comcast.net
I -

TABLE OF CONTENTS
Petition for Rehearing En Banc
I. This Proceeding Involves Question of Exceptional Importance
II. Grounds for Rehearing
A. History is the School of Politics
B. What Happens if History is Lost? Cheaters Win
III. Reasons for Granting Review
IV. Should We the People Have Faith in You?
A. Constitutional Interpretations
Conclusion
Certification of Petitioner Pro Se
Certificate of Service

2

PETITION FOR REHEARING

Pursuant to Rule 44.2 and based on current intervening circumstances
of substantial or controlling effect, Petitioner Jody D Kimbrell respectfully
petitions for rehearing of the Court's order denying Mandamus in this case.
I. This Proceeding Involves a Question of Exceptional Importance
"EQUAL JUSTICE UNDER LAW" is written above the main entrance to
the Supreme Court Building. It is the ultimate responsibility of the Supreme
Court of the United States and;
Unless the U.S. Supreme Court exercises its power of judicial review for a
disenfranchised Illinois voter;
The Republic dies in the darkness
It is time for the U.S. Supreme Court to intercede, which is exactly what
the petitioner is asking it to do, exercise legitimately its power of judicial review
for a disenfranchised Illinois voter allegation of Illinois public officials
misconduct in a federal election.
GROUNDS FOR REHEARING
A. History is the School of Politics
History is the school of politics. It opens the hidden springs of human affairs. It
sets before us striking instances of virtue, enterprise, courage, generosity,
3

patriotism, and by a natural principle of emulation, incites us to copy
such noble examples.
It leads to the rise, grandeur, revolutions, and
fall of empires and points out the influence the manners of a people
exert upon a government, as well as the influence the government
exerts upon the manners of a people.
It illustrates the blessings of political union, the miseries of faction, the
dangers of unbridled liberty, and the abuses by despotic power.
It displays the dealings of God with mankind, calls upon us to regard,
with awe, His darker judgments, and again it awakens the liveliest of emotions
of gratitude for His benevolence, cultivates a sense of dependence on Him, and
impresses us with a conviction of His justice.
History furnishes matter for conversation, chastens the imagination,
enlarges the range of thought, and strengthens and disciplines the mind.
History is what guides the future.
B. What Happens if History is Lost?
Supreme Court Justices become befuddled, using fragments of histoiy to
render decisions upon the population. Some even impose their own ideology,
which likens to putting false words into the mouths of our Founders.
The false words become fact, and the population lives with the results.

4

Groups form to impose their beliefs, and as more history is replaced,
more false information is spread.
These radical groups couldn't impose their beliefs as a good policy unless
Courts agree with them, media spreads their propaganda, Hollywood embraces
it, riots to divide the population against itself and corrupt politicians lust for it.
Therefore the truth and our past slowly die with the ages. What happens
if we do not speak up against it?
America falls.
C. 778,883 Votes Just Do Not Appear
The goal in this situation first started with an Illinois voter reviewing the
Cook County official website and noticing the amount of votes did not match
the registered voters;
The process continued by contacting the public election officials—no
response;
Then petitioning the Illinois Supreme Court for mandamus for the public
officials to answer, why there was more votes (way MORE) votes then registered
voters on the Cook County website;
So much it changed the winner of the Illinois Presidential Electoral votes
from Biden to Trump and Durbin to Curran senate race.
The Illinois Supreme Court denied her petition without reason or
opinion. Wokeness? Strangles justice and the law.
5

III. Reasons for Granting Review
Petitioner filed the petition for a US Supreme Court Mandamus for clear
citation of its authority that should give the Illinois Supreme Court the
backbone to order the Illinois Election Board-Chicago, the Governor of Illinois
and the Cook County clerk to explain 778,883 votes without registered voters
were "counted" in their totals and;
Why they were involved in unreasonable application of clearly
established Federal law that prohibits alleged ballot box stuffing.
By this Court backing the Illinois Supreme Court pushing it to "do its
duty" and order answers to the question: "Where did the "extra" 778,883 votes
come from.
In essence it will serve to ensure that the changing views of the actual
majority in Illinois is not undermined of their fundamental values common to
all Americans, i.e. free and fair elections.
IV. Should We the People Have Faith in You?
A. Constitutional Interpretation
The US Supreme Court is the highest tribunal in the Nation for all cases
and controversies arising under the Constitution. This Court is charged with
ensuring the American people the promise of Equal Justice under the law. If
public officials skew with its words to twist it to their favor to win, this Court as
guardian and interpreter of the Constitution can set them back on their heels;
6

Even for a single citizen of this Republic demanding her state public
officials explain the results they certified as fair, free and without fraud.
"Feeble as was the American army when Washington commenced
his retreat, it had by the hour diminished. His troops were unfed,
amidst fatigue, unshod, while their bleeding feet were forced over
sharp projections offrozen ground and they endured the keen December
air almost without clothes or tents.
Washington, with the firmness of the commander united with the
tenderness of the father, visited the sick, gave everything in his power to
the wants of the army praised their constancy, represented their suffering
to Congress, and encouraged their despairing minds by holding out
prospects of a better future. Ever relying on God for support and direction,
he moved calmly forward amid the darkest storms, assured that even
defeat in battle, insults offoes, or ingratitude or treachery in friends,
would eventually work together for good to those whose cause was
blessed of God. i
We are again on the battlefield with Washington and living the struggle
America faces for liberty. We cannot fail our children. To do so would leave our
legacy in shambles and our beloved America gone forever;

7

1. Lost. History of America by Jody D Kimbrell from Gordon’s America, 4 Volumes, 1788, By William Gordon

Amid all the flare-up of political strife, by which some will be agitated let
us ever bear aloft;
The Union: ONE Inseparable
Because;
Free and Fair Elections are America's foundation and we cannot allow
her to fall by the misconduct of a few,
This Petition for Re-hearing should be granted.
Dated this 18th day of April, 2021
Respectfully submitted

Oi

irell

Illinois Real Estate Managing Broker
6608 N University St
Peoria, IL 61614
309 678-3857

j ody 513@comcast. net

8

CERTIFICATE OF PETITIONER PRO SE
I, Jody D Kimbrell herby certify that this petition for rehearing is
presented in good faith and not for delay, and that it is restricted to
the grounds specified in Supreme Court Rule 44.2

9

